                 DEPARTMENT OF
                 DEPARTMENT OF HEALTH
                               HEALTH &.
                                      &. HUMAN SERVICES                                                               Office of
                                                                                                                      Office of Inspector General
                                                                                                                                          General
(4'''''"t
 '+,~ ~

  ;l*".,IO
                                                                                                                      Washington, D.C. 20201

                                                                                                                      Washington, D.C. 20201




                                                                  OCT
                                                                  OCT 28  2008
                                                                      28 2008


             TO:
             TO:       Kerry  Weems

                           Kerry Weems
                                 Acting Administrator



             FROM:
             FROM:          oseph E.E.Vengrn
                               oseph   Vengrin
                                              ~
                                 Centers for Medicare &

                                              ~
                                                      & Medicaid Services



                                 Deputy Inspector General for Audit Services


             SUBJECT: Review
             SUBJECT:        of of
                        Review  Allowable  Medicare
                                   Allowable MedicareCapital
                                                      CapitalDisproportionate
                                                              DisproportionateShare
                                                                               SharePayments
                                                                                    Payments for
                                                                                             for the
                        Period October 1, 2000,
                                          2000, Through September
                                                        September 30,2006
                                                                   30,2006 (A-07-08-02735)
                                                                            (A-07-08-02735)


             The attached final report provides the results of
                                                            of our review of
                                                                           of allowable Medicare
             disproportionate share payments for the period October 1, 1, 2000,
                                                                          2000, through
                                                                                 through September
                                                                                         September 30,2006.
                                                                                                   30,2006.

             Section 1886(g) of         of the Social Security Act provides for Federal reimbursement of                       of capital-related
             costs
             costs of of inpatient       hospital
                          inpatient hospital  services. services.       This
                                                        This provision has       provision
                                                                            created              has created a category of Medicare payment,
                                                                                    a category of


             known as the capital disproportionate share hospital (DSH) payment, for hospitals that are
             classified      as and
             classified as urban urban      and
                                     have 100      have
                                               or more beds. 100   or more
                                                             For qualifying       beds.the For
                                                                             hospitals,     amount qualifying
                                                                                                   of 
       hospitals, the amount of this
             payment varies based on a statutory formula.                formula.

             Our objective was to determine whether the hospitals that received capital DSH payments were
             eligible     based
             eligible based on their on  theirclassification
                                     geographic geographic        classification
                                                             and number of 
     and number of beds.

                                          rual hospitals
             We found that a number of rural   hospitals and
                                                          and hospitals
                                                              hospitals with
                                                                        with fewer
                                                                              fewer than 100
                                                                                         100 beds claimed
             Medicare capital DSH payments even though those facilities were, according to Federal
                                                payments. Of
             requirements, ineligible for these payments.   Of2,396
                                                                2,396 acute-care
                                                                      acute-care hospitals that claimed
             $1,621,679,111 in capital DSH payments on submitted cost reports, 397 hospitals in rural areas
             or with fewer than 100 beds claimed $21,915,658
                                                   $21,915,658 in unallowable
                                                                     unallowable capital
                                                                                  capital DSH
                                                                                          DSH payments.
                                                                                               payments. The
             remaining $1,599,763,453 was claimed by hospitals that were classified as urban and had 100 or
             more beds.

             We recommend that the Centers for Medicare & Medicaid Services (CMS):

                  •. direct thethe
                        direct   fiscal intermediaries
                                    fiscal              totorecover
                                           intermediaries     recover$21,915,658
                                                                      $21,915,658inincapital
                                                                                      capitalDSH
                                                                                              DSHpayments
                                                                                                  paymentsmade
                                                                                                          made to
                        ineligible hospitals, in accordance with CMS policies and procedures;
Page 2 – Kerry Weems


   •   determine whether capital DSH payments were made to ineligible hospitals for the period
       subsequent to the end of our review (fiscal year 2006) and direct fiscal intermediaries to
       recover any unallowable payments; and

   •   conduct reviews on a recurring basis to determine whether capital DSH payments are
       being made to ineligible hospitals.

In its written comments on our draft report, CMS agreed with our recommendations.

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C. § 552, as amended by
Public Law 104-231, Office of Inspector General reports generally are made available to the
public to the extent the information is not subject to exemptions in the Act (45 CFR part 5).
Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

Please send us your final management decision, including any action plan, as appropriate, within
60 days. If you have any questions or comments about this report, please do not hesitate to call
me, or your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through e-mail at
George.Reeb@oig.hhs.gov. Please refer to report number A-07-08-02735 in all correspondence.


Attachment
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   REVIEW OF ALLOWABLE
     MEDICARE CAPITAL
  DISPROPORTIONATE SHARE
  PAYMENTS FOR THE PERIOD
  OCTOBER 1, 2000, THROUGH
     SEPTEMBER 30, 2006




                    Daniel R. Levinson
                     Inspector General

                      October 2008
                      A-07-08-02735
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                           Notices



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people age 65 or older, people under age 65 with certain disabilities, and
people of all ages with end-stage renal disease (permanent kidney failure requiring dialysis or a
kidney transplant). The Centers for Medicare & Medicaid Services (CMS) administers the
program.

Medicare providers, including hospitals, submit cost reports to their Medicare fiscal
intermediaries annually. The cost report is based on the providers’ financial and statistical
records, and providers attest to the accuracy of the data when submitting their cost reports. After
acceptance of the cost report, the fiscal intermediary performs a tentative settlement. The fiscal
intermediary reviews the cost report and conducts an audit, if necessary, before final settlement.
The fiscal intermediary then issues a notice of program reimbursement. As the final settlement
document, this notice shows whether payment is owed to the provider or to the Medicare
program.

The Medicare cost report is used to report various Medicare payments, including an operating
disproportionate share hospital (DSH) payment if a hospital is deemed eligible for
reimbursement of operating costs because it treats a disproportionate share of low-income
patients. In addition to this category of Medicare payments, section 1886(g) of the Act also
provides for Federal reimbursement of capital-related costs of inpatient hospital services “in
accordance with a prospective payment system” established by the U.S. Department of Health
and Human Services. This provision has created an additional category of Medicare payment,
known as the capital DSH payment, for hospitals that are categorized as urban hospitals and have
100 or more beds. For qualifying hospitals, the amount of this payment varies based on a
statutory formula.

OBJECTIVE

Our objective was to determine whether the hospitals that received capital DSH payments were
eligible based on their geographic classification and number of beds.

SUMMARY OF FINDINGS

A number of rural hospitals and hospitals with fewer than 100 beds claimed Medicare capital
DSH payments even though those facilities were, according to Federal requirements, ineligible
for these payments. Of 2,396 acute-care hospitals that claimed $1,621,679,111 in capital DSH
payments on submitted cost reports, 397 hospitals in rural areas or with fewer than 100 beds
claimed $21,915,658 in unallowable capital DSH payments. The remaining $1,599,763,453 was
claimed by hospitals that were classified as urban and had 100 or more beds.

These errors occurred because CMS did not ensure that only eligible hospitals received capital
DSH payments. Specifically, although the fiscal intermediaries may have reviewed the cost
reports to ensure their proper completion, CMS did not have adequate procedures in place to


                                                 i
ensure that the fiscal intermediaries verified during the settlement process that the hospitals were
eligible for capital DSH payments.

RECOMMENDATIONS

We recommend that CMS:

   •   direct the fiscal intermediaries to recover $21,915,658 in capital DSH payments made to
       ineligible hospitals, in accordance with CMS policies and procedures;

   •   determine whether capital DSH payments were made to ineligible hospitals for the period
       subsequent to our review (Federal fiscal year 2006) and direct fiscal intermediaries to
       recover any unallowable payments; and

   •   conduct reviews on a recurring basis to determine whether capital DSH payments are
       being made to ineligible hospitals.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, CMS agreed with our recommendations and described
corrective actions it was undertaking. CMS’s comments appear in their entirety as the Appendix.




                                                 ii
                                                  TABLE OF CONTENTS

                                                                                                                                    Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................1
               Objective ..............................................................................................................1
               Scope....................................................................................................................1
               Methodology ........................................................................................................2

FINDINGS AND RECOMMENDATIONS ............................................................................3

          FEDERAL REQUIREMENTS........................................................................................3

          INELIGIBLE HOSPITALS RECEIVED UNALLOWABLE PAYMENTS…………..3

          INADEQUATE PROCEDURES.....................................................................................4

          RECOMMENDATIONS.................................................................................................4

          CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS ....................5

APPENDIX

          CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS




                                                                    iii
                                              INTRODUCTION

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people age 65 or older, people under age 65 with certain disabilities, and
people of all ages with end-stage renal disease (permanent kidney failure requiring dialysis or a
kidney transplant). The Centers for Medicare & Medicaid Services (CMS) administers the
program.

Medicare providers, including hospitals, submit cost reports to their Medicare fiscal
intermediaries 1 annually. The cost report is based on the providers’ financial and statistical
records, and providers attest to the accuracy of the data when submitting their cost reports. After
acceptance of the cost report, the fiscal intermediary performs a tentative settlement. The fiscal
intermediary reviews the cost report and conducts an audit, if necessary, before final settlement.
The fiscal intermediary then issues a notice of program reimbursement. As the final settlement
document, this notice shows whether payment is owed to the provider or to the Medicare
program.

The Medicare cost report is used to report various Medicare payments, including an operating
disproportionate share hospital (DSH) payment if a hospital is deemed eligible for
reimbursement of operating costs because it treats a disproportionate share of low-income
patients. In addition to this category of Medicare payments, section 1886(g) of the Act also
provides for Federal reimbursement of capital-related costs of inpatient hospital services “in
accordance with a prospective payment system” established by the U.S. Department of Health
and Human Services. This provision has created an additional category of Medicare payment,
known as the capital DSH payment, for hospitals that are categorized as urban hospitals and have
100 or more beds. For qualifying hospitals, the amount of this payment varies based on a
statutory formula.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the hospitals that received capital DSH payments were
eligible based on their geographic classification and number of beds.

Scope

The audit scope included $1,621,679,111 in capital DSH payments claimed on the cost reports
for 2,396 acute-care hospitals for Federal fiscal years (FY) 2000 through 2006. We limited our


1
 Medicare fiscal intermediaries are private insurance companies that serve as the Federal Government’s agents in the
administration of the Medicare program and are responsible for determining costs and reimbursement amounts,
providing payment to the providers, and establishing controls to safeguard against fraud and abuse.


                                                         1
internal control review to the fiscal intermediaries’ procedures for determining whether hospitals
were eligible for capital DSH payments.

We did not verify the accuracy of either the geographic determination listed on each impact file 2
or the information used to calculate the number of beds, which was certified as accurate by each
hospital on its cost report.

We conducted fieldwork in March 2008 at CMS’s offices in Baltimore, Maryland.

Methodology

To accomplish our objective:

    •   We reviewed applicable Federal laws and regulations.

    •   We interviewed CMS and fiscal intermediary officials to gain an understanding of the
        capital DSH program.

    •   We reviewed the audit steps used by the fiscal intermediaries to ensure that only urban
        hospitals with 100 or more beds received capital DSH payments.

    •   We obtained and analyzed all cost reports for acute care inpatient hospitals for FYs 2000
        through 2006 as of March 31, 2007, to identify whether any hospitals received capital
        DSH payments while being categorized as rural or having fewer than 100 beds as defined
        by 42 CFR § 412.105(b). Specifically, we used the historical impact files, which CMS
        compiles, to identify whether particular hospitals were classified as rural or urban for the
        respective time period. If a particular hospital was not included on the impact file, we
        used information from the cost report. To determine the number of beds in each hospital,
        we used information contained in the cost reports.

    •   We provided a list of the hospitals that we determined were ineligible for capital DSH
        payments to CMS on April 14, 2008.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.




2
 CMS compiles the impact files from the provider-specific files maintained by the fiscal intermediaries. The impact
files, as used by CMS to estimate the payment effects of policy changes, serve as references and identify the urban
or rural classification of the hospitals.


                                                         2
                         FINDINGS AND RECOMMENDATIONS

A number of rural hospitals and hospitals with fewer than 100 beds claimed Medicare capital
DSH payments even though those facilities were, according to Federal requirements, ineligible
for these payments. Of 2,396 acute-care hospitals that claimed $1,621,679,111 in capital DSH
payments on submitted cost reports, 397 hospitals in rural areas or with fewer than 100 beds
claimed $21,915,658 in unallowable capital DSH payments. The remaining $1,599,763,453 was
claimed by hospitals that were classified as urban and had 100 or more beds.

FEDERAL REQUIREMENTS

Pursuant to 42 CFR § 412.320, a hospital must be located in an urban area and have 100 or more
beds to be eligible to receive capital DSH payments.

INELIGIBLE HOSPITALS RECEIVED UNALLOWABLE PAYMENTS

A number of rural hospitals and hospitals with fewer than 100 beds claimed Medicare capital
DSH payments even though these facilities were ineligible for these payments.

Our review of the Medicare cost reports and the historical impact files indicated that of the
$1,621,679,111 in capital DSH payments claimed on submitted cost reports during our audit
period, 397 hospitals—ineligible for capital DSH payments because they were either rural or had
fewer than 100 beds—claimed a total of $21,915,658 in unallowable capital DSH payments.
The chart shows the total unallowable capital DSH payments for hospitals that were rural, had
fewer than 100 beds, or both.




                                               3
           Capital DSH Payments to Ineligible Hospitals, Fiscal Years 2000–2006




                                   $4 Million - 18%
                              Rural Hospitals with Fewer            $5.1 Million - 23%
                                    Than 100 Beds               Urban Hospitals with Fewer
                                                                     Than 100 Beds




                                                 $12.8 Million - 59%
                                              Rural Hospitals with 100 or
                                                     More Beds




INADEQUATE PROCEDURES

CMS did not ensure that only eligible hospitals received capital DSH payments. Specifically,
although the fiscal intermediaries may have reviewed the cost reports to ensure their proper
completion, CMS did not have adequate procedures in place to ensure that fiscal intermediaries
verified during the settlement process that the hospitals were eligible for capital DSH payments.

RECOMMENDATIONS

We recommend that CMS:

    •   direct the fiscal intermediaries to recover $21,915,658 in capital DSH payments made to
        ineligible hospitals, in accordance with CMS policies and procedures;

    •   determine whether capital DSH payments were made to ineligible hospitals for the
        period subsequent to our review (FY 2006) and direct fiscal intermediaries to recover
        any unallowable payments; and

    •   conduct reviews on a recurring basis to determine whether capital DSH payments are
        being made to ineligible hospitals.

                                                           4
CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, CMS agreed with our recommendations and described
corrective actions it was undertaking.

Specifically, CMS stated that it had directed Medicare administrative contractors and fiscal
intermediaries to reopen cost reports for each hospital that we had identified as being ineligible
to receive capital DSH payments (as long as the cost report was within the 3-year reopening
period). 3 CMS further stated that for all cost reports that are reopened, all payments that we had
identified as erroneous would be reviewed and overpayments would be collected. CMS also said
that it has directed the contractors to immediately begin reviewing capital DSH eligibility as a
part of their review process. CMS also said that it “will include a review of capital DSH when
we review contractors’ audit performance” and that it intends to add an edit to the cost report
software to prevent ineligible hospitals from claiming capital DSH payments on their cost
reports.

CMS’s comments appear in their entirety as the Appendix.




3
 The Medicare Modernization Act of 2003, P.L. No. 108-173, which became effective on October 1, 2005, amended
certain sections of the Act, including section 1842(a), to require that Medicare administrative contractors replace
fiscal intermediaries by October 2011.

                                                        5
APPENDIX
APPENDIX
 Page 1 of 2
APPENDIX
 Page 2 of 2
